No.

~upreme <!Court of tbe Wlniteb ~tate%

PETER F . GARY, an individual and Florida citizen; PINNACLE HOLDINGS
GROUP, LLC, a Florida limited liability company; PINNACLE ADVERTISING &
MARKETING GROUP, LLC, a Florida limited liability company; PINNACLE
ADVISORY MANAGEMENT, LLC, a Florida limited liability company; and
PINNACLE DIGITAL, LLC, a Florida limited liability company,

Petitioners,
V.

JTC HOLDINGS, LLC, a Colorado limited liability company,

Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.l(h), I certify that the Petition for Writ
of Certiorari filed in the above-captioned case contains 2,156 words, excluding the
parts of the document that are exempted by Supreme Court Rule 33.l(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on November 16, 2020

Sworn to and subscribed before me this 16th day of November 2020.
STATE OF COLORADO
COUNTY OF DENVER

)
)ss.
)

My Commission Expires:

sl 1s/~1

Signature of Notary Public
SANDRA RIDER
NOTARY PUBLIC
STATE OF COLORADO
NOTARY ID 20014006942
MY COMMISSION EXPIRES 03/15/2021

